mm

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-441
MINNESOTA SANDS, LLC,
Petitioner,
v.

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

COUNTY OF WINONA, MINNESOTA,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.i(h), I certify that the REPLY BRIEF IN SUPPORT
OF CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2970 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 15th day of December, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

A GEWERAL MOTARY-State of Hebraska Konee
RENEE J, QOSS: 0
My Comm. Exp. Septembar 5, 2023 .

Notary Public 7

   

Oude h, Bh Le

Affiant 40444
